Mazuma Credit Union
7260 W. 135th Street
Overland Park, KS 66223
(913) 574-5000 (888) 361-4194
www.mazuma.org

CREDIT CARD AGREEMENT

BORROWER 1

ACCOUNT NUMBER

BORROWER 2

DATE

In this Agreement, “You” and “your” mean any person who accepts this Agreement or uses the Card. The “Card” means any credit card issued to you or
those designated by you under the terms of this Agreement. “We”, “us”, “our” and the “Credit Union” means Mazuma Credit Union or its successors. By
using your card, you agree to all of the terms and conditions set forth herein.

SECURITY: YOU SPECIFICALLY GRANT US A CONSENSUAL
SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS
YOU HAVE WITH US NOW AND IN THE FUTURE TO SECURE
REPAYMENT OF CREDIT EXTENDED UNDER THIS AGREEMENT.
THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION
FOR THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT. IF
YOU ARE IN DEFAULT, WE CAN APPLY YOUR SHARES TO THE
AMOUNT YOU OWE. Shares and deposits in an Individual Retirement
Account or any other account that would lose special tax treatment
under state or federal law if given are not subject to this security
interest.
If you have other loans with us, collateral securing such loans may also
secure your obligations under this Agreement, unless that other collateral
is your principal residence or non-purchase money household goods.
Using Your Card. You can purchase or lease goods and services from
any merchant who honors your Card, and you may obtain cash advances
from financial institutions and ATM machines that accept the Card, up to
your maximum credit limit. You agree not to present your Card or obtain a
cash advance for any extension of credit in excess of your available credit
limit; however, if you do exceed your credit limit, you agree to make
immediate payment sufficient to bring the balance below the credit limit.
Certain purchases and cash advances require authorization prior to
completion of the transaction. In some cases, you may be asked to
provide identification. If our system is not working, we may not be able to
authorize a transaction, even though you have sufficient credit available.
Also, for security reasons, we may block the use of your Card in certain
countries or geographic areas. We will have no liability to you or others if
any of these events occur.
Personal Identification Number (PIN). We may issue a Personal
Identification Number (PIN) for use with your Card. This PIN is confidential
and should not be disclosed to anyone. You may use your PIN and your
Card to access your account, and all sums advanced will be added to
your account balance. In the event a use of your PIN constitutes an
Electronic Funds Transfer, the terms and conditions of your Electronic
Funds Transfer Agreement may affect your rights.
Promise To Pay. You promise to pay us in U.S. dollars for (a) all
purchases, cash advances, and balance transfers made by you or anyone
whom you authorize to use the Card; (b) all Interest Charges and all other
charges or fees; (c) collection costs and attorney's fees as permitted by
applicable law, and any costs incurred in the recovery of the Card; and (d)
credit in excess of your credit limit that we may extend to you.
Illegal Transactions: You agree that your Card and account will not be
used to make or facilitate any illegal transactions as determined by
applicable law; and that any such use will constitute an event of default
under this Agreement. We may decline any transaction that we believe to
be illegal under applicable law, including but not limited to any transaction
involving or relating to any gambling activity. You agree that we will have
no liability or responsibility for any such use by you or any authorized
user(s); or for declining any such transaction. You further agree to
indemnify and hold us harmless from any suits, liability, damages or
adverse action of any kind that results directly or indirectly from such
illegal use. You promise to pay us any and all amounts owing on your
9011 SYM FI17624 12-2014

Card for any transactions made by you, even if the transaction is
determined to be illegal.
Joint Accounts. Each of you will be responsible, jointly and severally, for
the repayment of amounts owed, regardless of who initiated any
transaction under the account.
Others Using Your Account. If you allow anyone else to use your
account, you will be liable for all credit extended to such persons. You
promise to pay for all purchases and advances made by anyone you
authorize to use your account, whether or not you notify us that he or she
will be using it. If someone else is authorized to use your account and you
want to end that person's privilege, you must notify us in writing, and if he
or she has a Card, you must return that Card with your written notice for it
to be effective.
Ownership of Card. Your Card remains our property and may be
cancelled by us at any time without notice. You agree to surrender your
Card and to discontinue use of the account immediately upon our request.
Interest Charges. You agree to pay interest at the rate(s) disclosed to
you at the time you open your account and as may be changed from time
to time in accordance with applicable law. Average Daily Balance
excluding new transactions: Interest Charges will accrue on your average
daily balance outstanding during the month. To get the average daily
balance, we take the beginning balance each day (excluding new
purchases), and subtract any payments and credits. This gives us the
daily balance. Then, we add up all the daily balances for the billing cycle
and divide that by the number of days in the billing cycle. We then multiply
that by the periodic rate corresponding to the Annual Percentage Rate on
your account.
Grace Period on Purchases Only: You can avoid Interest Charges on
purchases by paying the full amount of the new balance for purchases
each month by the date on which the payment is due. Otherwise, the new
balance of your account, and subsequent advances from the date they
are posted to the account, will be subject to an Interest Charge. You
cannot avoid Interest Charges on cash advances and balance transfers;
even if you pay the entire cash advance balance or balance transfer
balance by the payment due date, you will incur the Interest Charges
accrued from the date the cash advance or balance transfer is posted to
your account.
Fees. In addition to the Interest Charges set forth above, you agree to
also pay any and all fees that you incur as disclosed to you on your Truthin-Lending Statement or similar disclosures (as may be amended from
time to time), or as disclosed to you during the term of your Card.
If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You
agree to notify us immediately if your Card is ever lost or stolen or if an
unauthorized use may have occurred. "Unauthorized use" means the use
of the Card by someone other than you who does not have actual, implied
or apparent authority for such use, and from which you receive no benefit.
The telephone number to call is (816) 361-4194. You agree to follow up
your call with notice in writing to us at: 9300 Troost Avenue, Kansas City,
MO 64131. You also agree to assist us in determining the facts,
circumstances and other pertinent information relating to any loss, theft or
possible unauthorized use of your Card and comply with such procedures
as we may require in connection with our investigation. You will be liable

page 1 of 3

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

for any unauthorized use only if we can prove that you were grossly
negligent in your use or handling of your Card, or if we can prove that you
used your Card fraudulently.
Minimum Payment Due; Crediting of Payments. Payments are due in
the amount and on the date disclosed on your billing statement. If your
payment is received by us on a business day at the address and by the
time designated on the billing statement, it will be credited to your account
on the date of receipt. If payment is made at any location other than the
address designated on the periodic statement, credit for such payment
may be delayed up to five (5) days. Payments will be applied in any order
we determine, subject to applicable law.
Default; Acceleration; Credit Suspension; Collection Costs. You will
be in default if: (1) you fail to make any payment on time; (2) if you fail to
keep any promises you have made under this Agreement or under other
Agreements you have with us; (3) if you die; (4) if you file a petition in
bankruptcy or have a bankruptcy petition filed against you, or if you
become involved in any insolvency, receivership or custodial proceeding;
(5) if anyone attempts to take any of your funds held by us via legal
process or if you have a judgment or tax lien filed against you; (6) if you
make any false, inaccurate, or misleading statements in any credit
application or credit update; or (7) if we, in good faith, believe that your
ability to repay what you owe is or soon will be impaired, or that you are
unwilling to make your payments.
If you are in default, we have the right to demand immediate payment of
your full account balance without giving you notice. If immediate payment
is demanded, you agree to continue paying interest charges and fees until
what you owe has been paid, and any shares that were given as security
for your account may be applied towards what you owe. You agree to pay
all reasonable costs of collection, including court costs and attorney's
fees, and any costs incurred in the recovery of the Card, subject to
applicable law. Even if your unpaid balance is less than your credit limit,
you will have no credit available during any time that any aspect of your
account is in default.
Additional Benefits/Card Enhancements. We may from time to time
offer additional services to your Account at no additional cost to you. You
understand that we are not obligated to offer such services and may
withdraw or change them at any time.
Convenience Checks. We may, at our discretion, issue checks to you
which may be used for any purpose other than making a payment for
credit to your account. By signing such check, you authorize us to pay the
item for the amount indicated and post such amount as a cash advance to
your account. We do not have to pay any item which would cause the
outstanding balance in your account to exceed your credit limit.
Credit Information. We may from time to time request personal
information from you or obtain credit reports from the credit reporting
agencies for the purpose of updating your credit status. Your failure to
provide such information when requested by us may result in suspension
of credit privileges under this Agreement, including your ability to obtain
any future advances by any means. You authorize us to investigate your
credit standing when opening or reviewing your account. You authorize us
to disclose information regarding your account to credit bureau and
creditors who inquire about your credit standing.
Foreign Transactions; Currency Conversion. Purchases and cash
advances made in foreign currencies will be billed to you in U.S. dollars.
The conversion rate in dollars will be a rate selected by the card company
from a range of rates available in wholesale currency markets for the
applicable central processing date, which rate may vary from the rate the
card company itself receives, or the government-mandated rate in effect
for the applicable central processing date in each instance. All
transactions processed outside of the United States (which may include
internet transactions) will be charged a foreign transaction fee in the
amount disclosed on your Truth-in-Lending Statement (as amended from
time to time).

use of the Card as well as Interest Charges and fees incurred. We may
change the terms of this Agreement, including the method of calculating
the periodic rate, at any time, by written notice, subject to applicable law.
Use of the Card constitutes agreement and acceptance of any change in
terms, unless applicable law requires otherwise. Our failure to exercise
any of our rights or to take any action shall not constitute a waiver of
those rights, or an amendment or change in any of the terms of this
Agreement.
Late or Partial Payments. Any payment that delays the reduction of your
balance will increase your total interest costs. Partial payments or
prepayments will not delay your next scheduled payment - you will still
need to make the minimum scheduled payment by the next scheduled
due date to keep your account current. We may accept late payments,
partial payments, checks or money orders marked "payment in full" and
such action shall not constitute final settlement of your account or a
waiver or forgiveness of any amounts owing under this Agreement.
Enforcement. We do not lose our rights under this or any related
agreement if we delay enforcing them. If any provision of this or any
related agreement is determined to be unenforceable or invalid, all other
provisions remain in full force and effect.
Returns and Adjustments. Merchants and others who honor the Card
may give credit for returns or adjustments, and they will do so by
submitting a credit slip which will be posted to your account. If your credits
and payments exceed what you owe us, the amount will be applied
against future purchases and cash advances. If the credit balance amount
is $1 or more, it will be refunded upon your written or verbal request.
Plan Merchant Disputes. We are not responsible for the refusal of any
plan merchant or financial institution to honor your Card. Also, we are not
responsible for goods or services that you purchase with the Card unless:
(a) your purchase was made in response to an advertisement we sent or
participated in sending you; or (b) your purchase cost more than $50 and
was made from a plan merchant in your state or within 100 miles of your
home; and only if you have made a good faith attempt, but have been
unable to obtain satisfaction from the plan merchant. You must resolve all
other disputes directly with the plan merchant. We do not warrant any
merchandise or services purchased by you with the Card.
Statements and Notices. Statements and notices will be mailed to you at
the most recent postal address or e-mail address (if you have elected to
receive such documents via electronic means) you have given us. Notice
sent to any one of you will be considered notice to all.
Notification of Address Change. You will notify us promptly if you
change your address for any reason. In order to prevent identity theft,
your identity may need to be verified before we act upon the notification.
Copy Received. You acknowledge that you have received a copy of this
Agreement.
Governing Law. This Agreement shall be construed under federal law
and the laws of the State of Missouri, and the venue shall be located in
Jackson County, Missouri. Fees are governed by section 408.140 RSMo.
Operating regulations of Visa may also apply. This Agreement is the
contract that applies to all transactions even though the sales, cash
advance, convenience check, credit or other slips you sign or receive may
contain different terms.
NOTICE TO UTAH BORROWERS: This written agreement is a final
expression of the agreement between you and the Credit Union. This
written agreement may not be contradicted by evidence of any oral
agreement.

Termination; Change-in-Terms. We may, by written notice, terminate
this Agreement at any time, subject to applicable law. You may terminate
this Agreement by written notice. Termination by either party shall not
affect your obligation to repay any balance on your account resulting from
page 2 of 3

BORROWER NAME

ACCOUNT NUMBER

BILLING RIGHTS NOTICE

· If we do not believe there was a mistake: You will have to pay the

Your Billing Rights: Keep this Document for Future Use

amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date payment
is due. We may then report you as delinquent if you do not pay the
amount we think you owe.

This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the
address(es) listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe
is wrong and why you believe it is a mistake.
You must contact us:

If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do
so, we cannot report you as delinquent without also reporting that you
are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations
know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first
$50 of the amount you question even if your bill is correct.

· Within 60 days after the error appeared on your statement.
· At least 3 business days before an automated payment is

Your Rights If You Are Dissatisfied With Your Credit Card
Purchases

scheduled, if you want to stop payment on the amount you think is
wrong.

If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay
the remaining amount due on the purchase. To use this right, all of the
following must be true:

You must notify us of any potential errors in writing. You may call us, but
if you do, we are not required to investigate any potential errors and you
may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the
error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:

1. The purchase must have been made in your home state or within
100 miles of your current mailing address, and the purchase price
must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or
services.)
2. You must have used your credit card for the purchase. Purchases
made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.

· We cannot try to collect the amount in question, or report you as
delinquent on that amount.

· The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.

· While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.

· We can apply any unpaid amount against your credit limit.

If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the address(es) listed on your
statement.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.

After we finish our investigation, one of two things will happen:

· If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.

page 3 of 3

